Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL




MILWAUKEE HEALTH SERVICES,
INC., CLAIMED UNALLOWABLE
   COSTS UNDER HEALTH
  RESOURCES AND SERVICES
  ADMINISTRATION GRANTS

 Inquiries about this report may be addressed to the Office of Public Affairs at
                          Public.Affairs@oig.hhs.gov.




                                                  Gloria L. Jarmon
                                               Deputy Inspector General

                                                       April 2013
                                                     A-05-12-00015
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at https://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program. HRSA requested this review.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, as well as vulnerable populations of
migrant and seasonal farm workers, the homeless, and residents of public housing. These grants
are commonly referred to as “section 330 grants.”

American Recovery and Reinvestment Act Grants

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Increased Demand for Services (IDS) and
Capital Improvement Program (CIP) grants.

Milwaukee Health Services, Inc.

Milwaukee Health Services, Inc. (MHSI) is a nonprofit organization formed in September 1989.
MHSI’s mission is to provide accessible, quality, primary and related health care services to
residents of Milwaukee, Wisconsin, with an emphasis on medically underserved families and
individuals. MHSI operates three sites located throughout the service area and offers a range of
primary health care services including physician, dental, behavioral, and pharmacy.

HRSA provided and MHSI claimed section 330 grant costs totaling $5,935,960 from February 1,
2007, through January 31, 2011; Recovery Act costs of $453,496 for an IDS grant from March
27, 2009, through March 26, 2011; and $1,304,515 for a CIP grant from June 29, 2009, through
June 28, 2011, totaling $7,693,971.

Federal Requirements for Grantees

The Code of Federal Regulations (CFR), at 45 CFR pt. 74, establishes uniform administrative
requirements governing HHS awards to nonprofit organizations, institutions of higher education,
hospitals, and commercial entities. As a nonprofit organization that receives Federal funds,
MHSI must comply with the Federal cost principles in 2 CFR pt. 230, Cost Principles for Non-
Profit Organizations (Office of Management and Budget Circular A-122), incorporated by

                                                i
reference at 45 CFR § 74.27(a). To be determined allowable, costs must meet the criteria in
those Federal cost principles. The HHS awarding agency may include additional requirements
that are necessary to attain the award’s objectives.

OBJECTIVE

Our objective was to determine whether costs claimed by MHSI were allowable under the terms
of the grants and applicable Federal regulations.

SUMMARY OF FINDINGS

Of the $7,693,971 in costs covered by our review, MHSI claimed $1,758,011 of Recovery Act
costs that were allowable under the terms of the IDS and CIP grants and applicable Federal
requirements. We could not determine the allowability of $5,935,960 in costs that consisted of
salary, wage, and fringe benefit costs that MHSI charged against its section 330 grant.
Specifically, MHSI did not maintain a financial management system that adequately identified
the source and application of section 330 grant costs and did not adequately support, with
personnel activity reports, the distribution of salaries and wages. MHSI did not have policies
and procedures to ensure that the use of grant funds complied with Federal requirements. As a
result, Federal funds were at risk of not being properly accounted for or used in accordance with
Federal requirements.

In 2010, MHSI discovered and we verified that $754,731 of income earned under the section 330
grant—“program income”—was misappropriated. (A former accounts payable employee, who is
now residing outside of the United States, misappropriated the funds.) Program income in a
section 330 grant may be used only for costs that are permitted under law and further the
objectives of the project. The $754,731 of misappropriated program income was not a cost
permitted by law and did not further the objectives of the project. Therefore, it is not a cost that
is allowable under section 330 and MHSI’s Notice of Grant Award.

RECOMMENDATIONS

We recommend that HRSA:

   •   either require MHSI to refund $5,935,960 to the Federal Government or work with MHSI
       to determine whether any of these costs were allowable,

   •   work with MHSI to ensure that any monetary recoveries related to the misappropriation
       of $754,731 is applied to services and activities consistent with the scope of the health
       center program,

   •   impose special award conditions on MHSI so that it takes corrective actions to ensure
       that:

           o financial records adequately identify the source and application of Federal
             program funds,



                                                 ii
           o personnel activity reports for employees working on Federal awards are
             maintained, and

           o segregation of duties is adequate to safeguard assets.

GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the grantee did not dispute the validity of our findings
and described actions it is taking or plans to take to address our recommendations. We have not
reviewed the grantee’s actions and take no position as to their adequacy and effectiveness.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations.




                                                iii
                                                    TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION...........................................................................................................1

     BACKGROUND ........................................................................................................1
       The Health Center Program ..................................................................................1
       American Recovery and Reinvestment Act Grants ..............................................1
       Milwaukee Health Services, Inc. ..........................................................................1
       Federal Requirements for Grantees ......................................................................1
       Special Award Conditions ....................................................................................2

     OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................2
       Objective ...............................................................................................................2
       Scope .....................................................................................................................2
       Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATIONS .................................................................3

     POTENTIALLY UNALLOWABLE GRANT COSTS .............................................4
       Federal Requirements ...........................................................................................4
       Inadequate Financial Management System ..........................................................4
       Inadequate Payroll Distribution Process ...............................................................5

     PROGRAM INCOME ................................................................................................5

     RECOMMENDATIONS ............................................................................................6

     GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL
       RESPONSE...........................................................................................................6

     HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS ...6

APPENDIXES

     A: GRANTEE COMMENTS

     B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                                                                      iv
                                      INTRODUCTION

BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, as well as vulnerable populations of
migrant and seasonal farm workers, the homeless, and residents of public housing. These grants
are commonly referred to as “section 330 grants.”

American Recovery and Reinvestment Act Grants

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Increased Demand for Services (IDS) and
Capital Improvement Program (CIP) grants.

Milwaukee Health Services, Inc.

Milwaukee Health Services, Inc. (MHSI) is a nonprofit organization formed in September 1989.
MHSI’s mission is to provide accessible, quality, primary and related health care services to
residents of Milwaukee, Wisconsin, with an emphasis on medically underserved families and
individuals. MHSI operates three sites located throughout the service area and offers a range of
primary health care services including physician, dental, behavioral, and pharmacy.

HRSA provided and MHSI claimed section 330 grant costs totaling $5,935,960 from February 1,
2007, through January 31, 2011; Recovery Act costs of $453,496 for an IDS grant from March
27, 2009, through March 26, 2011; and $1,304,515 for a CIP grant from June 29, 2009, through
June 28, 2011, totaling $7,693,971.

Federal Requirements for Grantees

The Code of Federal Regulations (CFR), at 45 CFR pt. 74, establishes uniform administrative
requirements governing HHS awards to nonprofit organizations, institutions of higher education,
hospitals, and commercial entities. As a nonprofit organization that receives Federal funds,

                                               1
MHSI must comply with the Federal cost principles in 2 CFR pt. 230, Cost Principles for Non-
Profit Organizations (Office of Management and Budget Circular A-122), incorporated by
reference at 45 CFR § 74.27(a). To be determined allowable, costs must meet the criteria in
those Federal cost principles. The HHS awarding agency may include additional requirements
that are considered necessary to attain the award’s objectives.

Special Award Conditions

Pursuant to 45 CFR § 74.14, HRSA may impose additional requirements if a grant recipient has
a history of poor performance, is not financially stable, does not have a financial management
system that meets Federal standards, has not conformed to the terms and conditions of a previous
award, or is not otherwise responsible.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether costs claimed by MHSI were allowable under the terms
of the grants and applicable Federal regulations.

Scope

MHSI claimed the full amount of the following grant awards during our review period of
February 1, 2007, through June 28, 2011:

                                                                                   Grant
   Grant                        Grant Performance Period
                                                                                  Award
 Section 330             February 1, 2007, through January 31, 2011              $5,935,960
 IDS                      March 27, 2009, through March 26, 2011                   $453,496
 CIP                        June 29, 2009, through June 28, 2011                 $1,304,515
    Total                                                                        $7,693,971

We reviewed $7,693,971 (100 percent) of costs claimed by the grantee. We performed this
limited scope review in response to a request from HRSA. We limited our review of internal
controls to those that pertained directly to our objective.

We performed our fieldwork at MHSI in Milwaukee, Wisconsin, during December 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    reviewed grant announcements, grant applications, and notices of grant awards;


                                               2
   •   reviewed MHSI’s bylaws, minutes from board of directors meetings, and organizational
       chart;

   •   reviewed MHSI’s policies and procedures, including, but not limited to, procurement
       policies, purchase order procedures, protection of corporate assets, and monitoring and
       reporting financial status;

   •   reviewed MHSI’s audited and unaudited financial statements and supporting
       documentation;

   •   held discussions with MHSI officials about policies, procedures, and methodology for
       claiming Federal funds;

   •   identified, in MHSI’s accounting records, funds expended for each award period;

   •   reconciled grant drawdowns with grant expenditures;

   •   reconciled grant expenditures, per accounting records, with Federal reports;

   •   compared budgeted and actual costs; and

   •   reviewed costs claimed under the grants to determine if they were allowable.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

Of the $7,693,971 in costs covered by our review, MHSI claimed $1,758,011 of Recovery Act
costs that were allowable under the terms of the IDS and CIP grants and applicable Federal
requirements. We could not determine the allowability of $5,935,960 in costs that consisted of
salary, wage, and fringe benefit costs that MHSI charged against its section 330 grant.
Specifically, MHSI did not maintain a financial management system that adequately identified
the source and application of section 330 grant costs and did not adequately support, with
personnel activity reports, the distribution of salaries and wages. MHSI did not have policies
and procedures to ensure that the use of grant funds complied with Federal requirements. As a
result, Federal funds were at risk of not being properly accounted for or used in accordance with
Federal requirements.

In 2010, MHSI discovered and we verified that $754,731 of income earned under the section 330
grant—“program income”—was misappropriated. (A former accounts payable employee, who is
now residing outside of the United States, misappropriated the funds.) Program income in a
section 330 grant may be used only for costs that are permitted under law and further the

                                                3
objectives of the project. The $754,731 of misappropriated program income was not a cost
permitted by law and did not further the objectives of the project. Therefore, it is not a cost that
is allowable under section 330 and MHSI’s Notice of Grant Award.

POTENTIALLY UNALLOWABLE GRANT COSTS

Federal Requirements

Pursuant to 45 CFR § 74.21(b), grantees must maintain financial management systems that
provide for, among other things:

   •   accurate, current, and complete disclosure of the financial results of each HHS-
       sponsored project or program in accordance with the reporting requirements in
       45 CFR § 74.52;

   •   records that identify adequately the source and application of funds for HHS-
       sponsored activities; and

   •   written procedures for determining the allowability of costs in accordance with
       the provisions of the applicable Federal cost principles and the terms and
       conditions of the award.

According to 2 CFR pt. 230, Appendix A, § A.2.g., “[t]o be allowable under an award, costs
must … [b]e adequately documented.” Additionally, 2 CFR pt. 230, Appendix B, § 8.m(1) states
that the distribution of salaries and wages must be supported by personnel activity reports, unless
the cognizant agency (the Federal agency responsible for negotiating and approving indirect cost
rates) has approved a substitute system in writing. Nonprofit organizations must maintain
personnel activity reports that meet the standards in 2 CFR pt. 230, Appendix B, § 8.m(2)(a)-(d).
The reports must:

   •   reflect an after-the-fact determination of the actual activity of each employee,

   •   account for the total activity for which each employee is compensated,

   •   be signed by the employee or by a responsible supervisory official having firsthand
       knowledge of the activities performed, and

   •   be prepared at least monthly and coincide with one or more pay periods.

Inadequate Financial Management System

MHSI’s financial management system did not separately account for all of its Federal grant
funds. MHSI’s financial management system did not provide accurate, current, and complete
disclosure of financial results and did not maintain records that identify the source and
application of funds for HHS-sponsored activities, as required by 45 CFR § 74.21(b).


                                                  4
For example, MHSI generally drew down section 330 grant funds on a monthly basis and used
the funds for payroll purposes. At the time of each drawdown, MHSI recorded the receipt of
grant funds in its accounting system. However, MHSI did not separately account for the use of
section 330 grant funds in its accounting system each pay period. We were unable to confirm
which portion of the $5,935,960 of MHSI’s payroll costs was funded through the section 330
grant and which was funded by other sources. As a result, we could not determine whether these
costs were allowable.

Inadequate Payroll Distribution Process

MHSI claimed $5,935,960 in salary, wage, and fringe benefit costs that were not supported by
personnel activity reports. MHSI’s financial management system did not separately account for
the use of Federal grant funds, section 330 grant payroll, and fringe benefit costs. MHSI’s
payroll distribution process did not provide an after-the-fact determination of actual activity
performed by employees for the period February 1, 2007, through January 31, 2011, as required
by 2 CFR pt. 230, Appendix B, § 8.m.

MHSI did not have policies and procedures to ensure that its payroll distribution process
(1) resulted in an allocation that reflected actual work performed by staff at least on a monthly
basis and (2) identified and segregated non-Federal activity. As a result, we could not determine
whether the $5,935,960 that MHSI charged to its section 330 grant for salaries, wages, and fringe
benefits was allowable under the terms of the grants and applicable Federal regulations.

PROGRAM INCOME

Pursuant to 45 CFR § 74.2, program income is defined as gross income earned by the recipient
that is directly generated by a supported activity or earned as a result of the award. Program
income includes, but is not limited to, income from fees for services performed. Under a section
330 grant, non-grant funds, such as program income, may be used to further the objectives of the
project (42 U.S.C. § 254b(e)(5)(D)). Specifically, MHSI’s Notice of Grant Awards states that
program income “shall be used as permitted under the law and may be used for such other
purposes as are not specifically prohibited under the law if such use further[s] the objectives of
the project.”

Program income earned for services performed under MHSI’s section 330 grant was deposited
into the organization’s primary operating checking account. Following an internal investigation
in December 2010, MHSI officials discovered that a former accounts payable employee, now
residing outside of the United States, had misappropriated organizational funds during the period
May 2008 through September 2010. The misappropriated funds were drawn from the
organization’s primary operating checking account. (MHSI officials reported the
misappropriation to the Milwaukee police department and later to HRSA.)

We have documented the misappropriated MHSI funds totaling $754,731. MHSI lacked
adequate segregation of duties to ensure that no employee had complete control over all phases
of a process or transaction. The $754,731 of misappropriated program income was not a cost



                                                5
permitted by law and did not further the objectives of the project. Therefore, it is not a cost that
is allowable under section 330 and MHSI’s Notice of Grant Awards.

RECOMMENDATIONS

We recommend that HRSA:

   •   either require MHSI to refund $5,935,960 to the Federal Government or work with MHSI
       to determine whether any of these costs were allowable,

   •   work with MHSI to ensure that any monetary recoveries related to the misappropriation
       of $754,731 is applied to services and activities consistent with the scope of the health
       center program,

   •   impose special award conditions on MHSI so that it takes corrective actions to ensure
       that:

           o financial records adequately identify the source and application of Federal
             program funds,

           o personnel activity reports for employees working on Federal awards are
             maintained, and

           o segregation of duties is adequate to safeguard assets.

GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the grantee did not dispute the validity of our findings
and described actions it is taking or plans to take to address our recommendations. We have not
reviewed the grantee’s actions and take no position as to their adequacy and effectiveness. The
grantee’s comments, excluding the attachments, are included as Appendix A. The attachments to
the grantee’s comments are excluded because they contain sensitive information.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations. HRSA’s
comments are included in their entirety as Appendix B.




                                                  6
APPENDIXES
                                                                                                                                    Page 1 of3

                         APPENDIX A: GRANTEE COMMENTS 





                                                   HEALTH SERVICES, INC.

   MLK- Heritage Health Center                     Your Healrh is Our Business                          Isaac Cor.gs Health Connection &1. !989




 December 18,2012




Ms. Sheri L. Fulcher
Regional Inspector General for Audit Services
Department ofHealth aud Human Se1vices
Office ofinspector General
Office of Audit Services, Region V
233 North Michigan, Suite 1360
Chicago, IL 60601

Re: Repmt Number A-05 - 12-00015

Dear Ms. Fulcher:

In response to the report dated December 14, 2012 for the above - referenced report number, our
comments related to the findings of the report are as follows.

Finding - Detenuination of Allowabilitv (page 3):
        Of the $7,693,971 in costs covered by our review, MHSI claimed $1,758,0ll of Recovety Act
       costs that were allowable under the terms of the IDS and C!P grants and applicable Fedeml
       requirements. We could not determine the allowability of$5,935,960 in. costs that consisted of
       sa/my, wage, and ji-inge benefit costs that MHSI charged against its section 330 grant..
       Specifically, lv!HS! did not maintain a fi~rancial management system that adeqtiately identified the
       source and application ofsection 330 grant costs and did not adequate~y support, with personnel
       activity reports, the distribution of salaries and wages. · MHSI did not have policies and
       procedures to ensure that the use of grant funds complied with Federal requirements. As a
       result, Federalfimds were at risk ofnot being properly accormtedfor or used in accordance with
       Federal requirements.

       MHSI R~~ponsc:
             We had the mistaken understanding that an annual allocation was sufficient. We had
             since learned that, minimally, monthly allocations are required. Given the limited
             staffing and financial resources, frequent allocation calculations can be cumbersome and
             time consuming for staff members; however we will continue developing a more efficient

                                                              1
                           2~55   North Dr. Martin Luther King Jr. Dr. • Mllw•ukee, Wisconsin 53212 

                                            Phone (414) 312-8080 • Fax (414) 372-7425 

                                                             Flnonce 

                                                                                                                    Page 2 of3




                   allocation methodology in the futu re. In addressing this finding, we have created a system
                   whereby we calculate the percent of salaries to be allocated to the grant based upon the
                   percentage of sliding fee patients.

   Finding- Misappropriation of Funds (pages 3-4):
          In 2010, MHSI discoFered (Ill(/ we F~tl'!fied that $754. 731 <~/'incom~t earned under rite section 330
         grant - "program income" - was misappropriated. (A former account.f payable employee. who
         is now residing outside o(the United States. misappropriated the .fwuf.t.) Program income ill a
         section 330 grant may he used on~v for costs that ewe permifled under law and .further the
         objecfil'eS of the projecl. Tlte $754,731 of mi~·crppropriated program incom~t was no/ a cost
         permifled l~v law and did not .furlher the objccti1'es q( the project. There.fbre. it is not a cost that
         is ctllowable under SI!Ciion 330 ond MHS!'s Notice ofGrant Award.

           MHSI Response:
                 II. sununary of our initial response to the misappropriation of funds is attached in a letter
                 dated January 9, 2012 from the Comptroller to the Chief Financial Officer. We have
                 since recovered $92,000 and are seeking the recovery ofadditional funds. As we recover
                 the tlmds, they are applied toward program income. The funds will he deposited into the
                 payroll bank account to be used to reimburse for payroll already paid. A warrant for
                 arrest is p laced upon the accused, however, because that person is believed to reside
                 outside of the United States, the an·est has not yet occun-cd.

   Finding- Inadequate Financial Management System (pages 4 -5):
          MHSI's financial management system did no/ separately account for all q{ its Federal gmnt
         .fimds... For example. MHSIgenerally drew down section 330 grant.fimds 011 a monthly basis and
          used the.fiwdsfor payroll pw]Joses. At the lime ofeach drall'down. MHSJ recorded !he receipt qf
         gmnt jimd!i in ils occounring system. Holmver, MHS! did not sept1rately accmmtfor !he use t~/'
          section 330 gran/funds in its accounting system, each pay period. We lt'ere unable ro cOI!firm
          which portion o.f the S5. 935,960 qf M/IS/'s payroll cos1s was fzmded !hrough the section 330
         grant and u·hich was.fimded by other sources. As a result, we could not determine ll'hetlter these
          costs "'ere (ll/owable.

          MHSI Response:
                We had the mistaken understanding that an annual allocation was sufficient. We had
                since leamed that, minimally, monthly allocations are required. Given the lintited
                staffing and tinancial resources, frequent allocation calculations can be cumbersome and
                time consuming for stafl' members; however we wi ll continue developing a more efficient
                allocation methodology in the future. ln addressing this find ing, we have created a system
                whereby we calculate the percent of salaries to be allocated to the grant based upon the
                percentage of sliding fee patients and will record the allocated transaction in the
                accounting system as such.

  Finding - Inadequate Payroll Distribution Process (pagU}:


                                                       2




Office of Inspector General Note- The referenced attachments are not included
           in the report file because they contain sensitive infmmation.
                                                                                                                 Page 3 of3




           MHSJ claim(jd $5,935.960 in sal01y, h'age, and,ti'inge benefit costs that were IIOt supported by
           personnel activity reports. MHSI 's financial management system did not separmely account for
           the use Q( Federal grant funds, section 330 grant payroll and .fi·inge ben~(it cosrs. MHSI's
           payroll distributicm process did not provide an (!fter-tlre-fact determination of actual activity
           performed by employees for the period Fehmary 1, 2007 through .January J I. 201/... MHSJ did
           not hmoe policies and procedures to ensure that its payroll distribution process {I) resulted in an
           allocation thor reflected acwal \\'Ork performed by staff at least on a montlrly basis and (2)
           ident(/lt:d and segregated non-Federal actil•ity. As a resulr, we could not detcmrine whether the
           $5,935.960 tlrm MHSI charged to its sectio11 330 grant .for salaries, wages and ji-inge benefits
           was allowable under the terms ofthe grams and (1pplicable Federal regulations.

           MHSI Response: 

                 Please note the response to the previous tinding. 


                   During the audit, a manual allocation of the salaries and wages with a percentage
                   calculated for fringe benefits was, in fact, provided during the audit, however the
                   allocation based upon a percentage of insured patients was performed at the end of the
                   fiscal year. We are making every attempt to detennine an appropriate basis and
                   methodology that can be reasonably perfonned witb the limited staff available. Our
                   payment management system confirms each provider's schedule and captures the arrival
                   of all patients. Based upon this infonnatioo, lhe allocations are pertonned on a monthly
                   basis based upon the percentage of self-pay charges in t he prior month .

   Finding - ProgramJncomc ( pages 5-6):
           We hal'c documented the misappropriated MHSI.fimds totaling $754,731 . MHS!Iacked adequate
           segregation Q( duties to ensure rlrat no employee had complete comrol over all plwses of a
          process or transaction. The $754,731 of misappropriated program income was not a cost
          permiued by fall' and did nor fimher the objectil'es ofthe project. Therefore, it is not a cost that
           is allowable under section 330 and MHS!'s Notice ofGrant Awards.

           MHSI Response:
                 An internal controls review and assessment was perfonned by an external auditing finn
                 in October 20 II. The findings and MHSI responses are found in the attached document.

   Please contaetme or Leana Henderkott, Comptroller at (414) 267-26 12 or at lhenderkott(mmhsi.org with
   any fun her questions or concerns.

   Sincerely,


   ?.~r~a
   President & CEO
   (4 14) 267-2021
   tizard@mhsi.org

                                                       3




Office of lnspectot· General Note - The referenced attachments are not included
           in the report file because they contain sensitive information.
                                                                                                  Page 1 of2

       APPENDIX B: HEALTH RESOURCES AND SERVICES 

               ADMINISTRATION COMMENTS 




   DEPARTMENT OF HEALTH &. HUMAN SERVICES 	                                 Health Resources and Services
                                                                            Admin istration

                                                                            Rockville, MD 20857



                                         FEB 2 7 20t1


T O:         Inspector General

FROM:        Administrator

SUBJECT: 	OIG Draft RcpOit: "Milwaukee Health Services, Inc., Claimed Unallowable Costs
          Under Health Resources and Services Administration Grants" (A-05-12-00015)

Attached is the Health Resources and Services Administration's (HRSA) response to the OIG's
draft report, "Milwaukee Health Services, Inc., Claimed Unallowable Costs Under Hculth
Resources and Services Administration Grants" (A-05-12-00015). If you have any questions,
please contact Sandy Seaton in HRSA's Office of Federal Assistance Management at
(301) 443-2432.



                                         L--;;7.1 /c_ 4-~
                                          M:·y ;(. J.;efield, Ph.D., R.N.

Attachment
                                                                                                        Page 2 of2




  Health R esources and. Services Administration 's C01mnents on the OIG Draft Report­
  "Milwaukee Health Sen•ices, Inc., Oaim ed Unallowable Costs Umler Health Resources
                  and Ser·vices Adminis tration Gr·ant.s" (A-05-12-00015)

The Health Resources and Services Administration (HRSA) appreciates the opportunity to
respond to the above draft report. HRS A 's response to the Office oflnspector General (OIG)
draft recommendations are as follows:

OIG Recommendat:ion:

We recommend that HRSA either require MHSI to refund $5,935,960 to the Federal
Govemment or work with MHSI to detennine whether any ofthese costs were allowable.

J-IRSA Response:

HRSA concurs with OIG 's recommendation. HRSA will work with Milwaukee Health Services,
Inc. , (MHSI) to determine the amount of unallowable costs charged against the HRSA grants.

OIG Reconunendat:ion:

We recommend that HRS A work with MHST to ens ure that any monetary recoveries related to
the misappropriation of $754,731 is applied to services and activities consistent with the scope of
the health center program.

HRSA Response:

HRS A concurs w ith O IG's recommendation. HRSA will work with MHSI to ensure that any
monetary recoveries related to misappropriated ftmds are applied to health center scope-related
activities.

OJG Recommendation:

We recommend that HRSA impose special award conditions on MHSI so that it takes corrective
actions to ensure that:
    • 	 fi11ancial records adequately identify the source and application of Federal program
        fund s,
    • 	 personnel activity reports for employees working on Federal awards are maintained, and
    • 	 segregation of duties is adequate lo safeguard asset.~.

HRSA Response:

HRS A concurs with OIG 's recommendation. HRSA will place special conditions on MHSI's
award to require the COITective actions related to financial records, personnel activity rep01ts, and
segregation of duti es.
